                            Office of the Inspector General


December 6, 1999

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Workers’Compensation Unreported by Social Security Beneficiaries (A-04-98-64002)


Attached is a copy of the subject final report. The objective of the audit was to
determine whether Social Security Disability Insurance beneficiaries were reporting the
receipt of State workers’compensation (WC) benefits or changes in those benefits to
the Social Security Administration (SSA). We focused on the procedures SSA used to
identify State WC benefits and subsequent changes in the amount of the periodic WC
payment.

You may wish to comment on any further actions taken or contemplated on our
recommendations. If you choose to comment, please provide your comments within
60 days of the date of this memorandum. If you wish to discuss the final report, please
call me or have your staff contact Daniel R. Devlin, Acting Assistant Inspector General
for Audit, at (410) 965-9700.




                                            James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



   WORKER’S COMPENSATION
    UNREPORTED BY SOCIAL
   SECURITY BENEFICIARIES


   December 1999   A-04-98-64002




AUDIT REPORT

                 E X E C U T I V E S U M M A R Y


OBJECTIVE

The objective of this audit was to determine whether Social Security Disability Insurance
(DI) beneficiaries were reporting the receipt of State workers’compensation (WC)
benefits or changes in those benefits to the Social Security Administration (SSA).

BACKGROUND

SSA administers the Old-Age, Survivors and Disability Insurance program under title II
of the Social Security Act (Act). Section 223(a) of the Act requires SSA to provide
monthly Social Security DI benefits to individuals who are insured for disability and meet
specific disability requirements. In some cases, SSA must “offset”the monthly DI
benefit if the individual is receiving other disability payments granted under a law or plan
of the United States, a State, or political subdivision. Therefore, during the DI
application process, SSA attempts to determine whether the beneficiary is or will be
receiving any other Federal or State disability benefit that would require offset. In
addition, the claimant is instructed to report any subsequent changes to the WC data
given at the time of the application for benefits. This includes the receipt of additional
disability benefits or changes in the current WC benefit amount. SSA’s policy is to rely
on each beneficiary to voluntarily report subsequent WC changes. However, if a
beneficiary fails to report, SSA may overpay or underpay the DI benefits authorized
under section 223(a) of the Act.

To meet our audit objective, we performed two tests. First, we obtained a data extract
from the SSA Master Beneficiary Record (MBR) that contained 183,881 cases coded as
having a State WC offset during the period January 1, 1993, through June 30, 1996.
Beneficiaries in the 183,881 cases received an estimated $7.6 billion (see Appendix C)
in DI benefits from their month of entitlement through June 1998. We used the
population of WC offset cases to sample records and identify payment errors resulting
because beneficiaries failed to report subsequent changes in State WC status and
benefits. Second, we compared WC records obtained from the Commonwealth of
Kentucky and the State of Tennessee against SSA records to determine whether DI
beneficiaries were reporting State awarded benefits at the time of application. Our audit
included an assessment of controls over the reporting of WC by beneficiaries. We
performed our audit work from August 1998 through April 1999 at field offices in Atlanta
and Tucker, Georgia; the central office in Baltimore, Maryland; and the program service
center in Birmingham, Alabama.




                                             i
RESULTS OF REVIEW

A major cause of inaccurate DI benefit payments stems from the fact that beneficiaries
still were not voluntarily reporting changes in WC status and benefits. Out of a
population of 183,881 WC offset cases, we estimate that 57,003 cases may have
unreported WC activity causing payment errors with a total dollar error of about
$325.8 million.1 Without a proactive strategy to identify the existence of WC and
subsequent changes in WC benefits, SSA has no means of identifying and correcting
existing DI payment errors resulting from initial WC offsetting errors or the subsequent
failure of a beneficiary to report WC changes.

WC ELIGIBILITY AND BENEFIT CHANGES

From a review of 100 cases, we identified 31 cases in which beneficiaries did not report
changes in either WC status or benefit amounts causing SSA to make incorrect DI
payments in 23 of those cases. Historically, SSA has relied on beneficiaries to report
subsequent changes in WC status and benefits and has not initiated any proactive
measures to identify unreported WC benefits. Therefore, we estimate that for the
population of 183,881 WC offset cases, the trust fund lost $214.4 million due to DI
overpayments, and beneficiaries were underpaid $111.4 million in DI benefits.

WC BENEFITS IN KENTUCKY AND TENNESSEE

Through a data match of Kentucky and Tennessee WC records against SSA records,
we identified six cases where DI beneficiaries were concurrently receiving State WC
benefits, but SSA records did not have a WC indicator. This meant that SSA had not
considered WC when calculating the DI benefit. Of the six cases, one claimant told
SSA, when applying for DI benefits, that he had not and did not intend to file for State
WC. However, evidence in the case file identified the disability as work-related. The
claimant later filed for and collected WC but did not notify SSA.2 The other
five claimants reported State WC in their DI application, but SSA did not record it on the
MBR. These five claimants later received WC or had changes in WC benefits that went
unreported. Because SSA did not code these as WC cases in the MBR, there was no
follow-up to identify WC, and DI offset never occurred. In these six cases, SSA
overpaid DI benefits by $29,797.3




1
  The projected total dollar error is the sum of estimated overpayment errors totaling $214.4 million and
underpayment errors of $111.4 million. The net effect of these errors on the Social Security trust fund
would be an estimated loss of $103 million.
2
  Based on this information, the SSA should have coded this case as a pending WC offset case and
continued its development to resolve the claimant’s discrepant answer.
3
  Kentucky and Tennessee cases represented 5.4 percent of our total population of 183,881 State WC
cases.


                                                     ii
STATE MATCHING TO IDENTIFY AND VERIFY WC ACTIVITY

Matching SSA DI data against a State WC record is the most expedient process for
identifying unreported WC benefits and the failure to offset reported WC at application.
However, SSA has made little progress in obtaining this source of data. Over 15 years
have passed since the U.S. General Accounting Office first reported the issue of
beneficiaries failing to report WC benefits and discussed the potential benefit of
obtaining WC data directly from the States. Thus far, SSA has been able to obtain on-
line access to State WC data in just five States. These 5 States accounted for less than
6 percent of the 183,881 WC cases in our population. SSA has no other proactive
means to identify unreported and unadjusted WC activity. SSA continues to depend on
the beneficiary to voluntarily report changes in WC status and benefits that can
adversely impact DI payment accuracy.

CONCLUSIONS AND RECOMMENDATIONS

One of SSA’s strategic goals is to make SSA program management the “best in
business.” This goal reflects SSA’s responsibility, from both a service and business
perspective, to pay benefits accurately and otherwise be a good steward of the money
entrusted to its care. In the 1997-2002 Social Security Strategic Plan, SSA
management expressed its view that the public deserves the highest possible level of
performance. As such, benefits should be paid accurately to ensure that the right
people get the right payment. In this vein, the Agency declared that its focus would be
to avoid both overpayments and underpayments and making improvements in areas
known to cause payment inaccuracies.

As demonstrated in this report, the failure of beneficiaries to voluntarily report changes
in WC status and benefits, and SSA’s inability to independently identify those WC
changes are major causes of inaccurate DI payments. Relying solely on beneficiaries
to voluntarily report WC and subsequent WC changes has not been a viable control.
Instead, SSA needs to take a proactive approach to identify subsequent changes in DI
beneficiary’s WC benefits and status. Only through this effort can SSA hope to improve
DI payment accuracy and prevent the unnecessary overpayment and underpayment of
benefits.

Therefore, we recommend that SSA:

•	 In those States where SSA has on-line access to WC data, perform a periodic match
   of DI beneficiary WC benefit rates used for offset against the WC rates paid and
   adjust for any discrepancies.

•	 For those States where on-line matching of WC data is not a current option,
   negotiate agreements with State officials to periodically obtain computer extracts of
   State WC information and benefit payments. Match the State WC rates against the
   rates used for offset, as recorded on the MBR, to identify potential nonreporters and



                                            iii
   cases not properly offset. Emphasis should be initially placed on those States with
   the highest WC activity.

•	 In those States where WC data cannot be obtained for computer matching, institute
   alternative measures to proactively identify WC benefits and benefit changes that
   are unreported by DI recipients. For example,

   -   Through a mass mailing, reaffirm with DI beneficiaries their WC reporting
       responsibilities and request current information on past WC lump sum benefit
       payments and/or changes in periodic payments, or

   -   During the current continuing disability reviews, inquire about post-application
       WC changes that could require the offset of DI benefits. If WC changes are
       indicated or discrepant answers are provided, diary for follow-up and resolution.

•	 Take the required action in the cases sampled to resolve the $116,600 in
   overpayments and $60,554 in underpayments that resulted when beneficiaries failed
   to report subsequent changes in State WC benefits. Also, collect the overpayments
   of $29,797 that resulted from the Kentucky and Tennessee cases because SSA
   either did not adjust for the WC benefits reported or the beneficiary failed to report
   State WC benefits.

AGENCY COMMENTS

SSA acknowledged that payment accuracy problems exist in the DI workload involving
WC and recognized the merit of our reported findings and proposed recommendations.
In response, SSA has agreed to pursue WC data matches in the States where it
currently has on-line access and in other States concentrating on the ten largest WC
States. In addition, SSA established a WC work group that is devising a comprehensive
plan to improve payment accuracy. This plan would include WC data matching with
States and a number of other clean up and prevention efforts to address the
deficiencies identified. The actions to be taken by the work group are detailed in SSA’s
response (see Appendix D).

OFFICE OF THE INSPECTOR GENERAL RESPONSE

We are pleased that SSA has taken steps and agreed to take additional steps to
improve the accuracy of DI payments involving WC. We are also pleased to be
participating in the WC work group effort intended to resolve the reported problems.
Overall, we believe the actions SSA has taken and those it proposes should go far in
helping correct the WC offset deficiencies that result in DI payment errors. Specifically,
SSA’s commitment to arrange for WC data exchange under State matching agreements
and to perform periodic mass mailings to update beneficiary WC information will be
major steps toward identifying and eliminating unreported WC as a major cause of DI
overpayments and underpayments.



                                            iv
                        T A B L E O F C O N T E N T S


                                                                                                              Page

EXECUTIVE SUMMARY......................................................................................... i



INTRODUCTION .................................................................................................... 1



RESULTS OF REVIEW.......................................................................................... 6


    WC ELIGIBILITY AND WC BENEFIT CHANGES ............................................. 6


    • WC Changes Can Affect DI Benefits ........................................................... 7

    • SSA Relied on Voluntary Reporting............................................................. 8

    • Post-entitlement Initiatives Can Help ........................................................... 9



    WC BENEFITS IN KENTUCKY AND TENNESSEE........................................ 11


    STATE MATCHING TO IDENTIFY AND VERIFY WC ACTIVITY ................... 13



CONCLUSIONS AND RECOMMENDATIONS .................................................... 16



APPENDICES
APPENDIX A – Attributes Appraisal

APPENDIX B – Variables Appraisal

APPENDIX C – Nonstatistical Appraisal

APPENDIX D – SSA Comments

APPENDIX E – Major Contributors to this Report

APPENDIX F – SSA Organizational Chart

                             I N T R O D U C T I O N


OBJECTIVE

The objective of this audit was to determine whether Social Security Disability Insurance
(DI) beneficiaries were reporting the receipt of State workers’compensation (WC)
benefits or changes in those benefits to the Social Security Administration (SSA). We
focused on the procedures SSA used to identify State WC benefits and subsequent
changes in the amount of the periodic WC payment.

BACKGROUND

SSA administers the Old-Age, Survivors and Disability Insurance program under title II
of the Social Security Act (Act). Section 223(a) of the Act requires SSA to provide
monthly Social Security DI benefits to individuals who are insured for disability
insurance and meet specific disability requirements.

Some individuals, if injured on the job, may also be eligible for benefits under Federal
and State WC programs. With the availability of dual disability benefits through Social
Security DI and Federal and State WC programs, a disabled worker could actually
experience an increase in earnings. The worker could be entitled to more in combined
disability benefit payments than he/she was earning prior to becoming disabled.

WC Offset

Congress, concerned that those workers experiencing increased earnings under
disability may not be motivated to actively seek rehabilitation, enacted the WC offset
provision under section 224 of the Act. This provision requires SSA to offset DI
payments by any other disability benefits paid under any law or plan of the
United States, a State, or political subdivision. This would include benefits authorized
under the Longshore and Harbor WC Act, Federal Employees Compensation Act,
Federal Mine Safety and Health Act - Part C, and various State WC programs. In each
instance, the Social Security DI benefit is the one reduced.4

The DI Payment Process

In accordance with section 224(e) of the Act, SSA determines the status of WC benefits
during the application process by asking claimants if they have filed or intend to file a


4
  Total benefit payments, with respect to the worker, will not be reduced below the amount of the
unreduced monthly Social Security benefit (primary insurance amount), sections 224(a) and 224(d) of the
Act.


                                                   1

WC claim. Once a favorable disability determination is made, SSA calculates a monthly
DI payment by offsetting benefits when WC is indicated. SSA uses either the WC
amount alleged by the claimant or the State maximum WC rate listed in the Program
Operations Manual System (POMS) to calculate the initial monthly DI benefit.

Once a DI payment is authorized, SSA will send a letter of notification to each
beneficiary explaining how the monthly Social Security DI benefit was impacted by the
WC offset. The beneficiary is advised that, if the verified amount of State WC payments
differs from the amount alleged or the State maximum, the initial monthly DI benefit
could change.

SSA subsequently solicits appropriate WC verification from the primary beneficiary and,
possibly, his/her attorney. If the worker is unable to provide the appropriate verification,
SSA will send out third-party verification requests to: (1) insurance carriers, (2) the
State WC board, (3) self-insured employers, and/or (4) the courts. SSA’s policy is to
establish 60- and 90-day diaries to follow up on cases where WC verification is pending
and to continue to redevelop and rediary until the WC is verified. If the verified amount
of State WC differs from that used to calculate the initial DI payment amount, SSA
recalculates and adjusts the monthly DI benefit. If any overpayment or underpayment
results, SSA settles with the beneficiary.

Post-adjudicative Adjustments to DI Benefits

Any future change in the beneficiary’s WC benefit can result in subsequent
readjustments to the monthly Social Security DI benefit. Therefore, beneficiaries are
instructed, when they make their DI application, to report any WC changes directly to
SSA. For example, an award of new or additional State WC benefits or a change in the
amount of monthly WC benefits paid should be reported. SSA’s policy is to rely totally
on the beneficiary to voluntarily report subsequent changes that could affect benefits. If
reported, SSA will withhold at the new alleged amount. However, SSA must obtain
verification of the reported change. In those cases where the beneficiary elects not to
report WC changes, DI benefits may be overpaid or underpaid.

Under section 224(h)(2) of the Act, SSA has the authority to enter into agreements with
States to obtain WC data to match that information against SSA records. This provides
an independent mechanism for making timely determinations regarding subsequent
changes in State WC that would require offset.

Payment Accuracy Goals

One of SSA’s strategic goals is to make program management the “best in business.”
This goal reflects SSA’s responsibility, from both a service and business perspective, to
pay benefits accurately and otherwise be a good steward of the money entrusted to its
care. In the 1997-2002 Social Security Strategic Plan, SSA management expressed its
view that the public deserves the highest possible level of performance. As such,
benefits should be paid accurately to ensure that the right people get the right payment.



                                             2

In this vein, the Agency expressed that its focus would be to avoid both overpayments
and underpayments and improve areas known to cause payment inaccuracies.

Prior Audit Reports

The U.S. General Accounting Office (GAO) and the Department of Health and Human
Services, Office of Inspector General (HHS/OIG), reported in prior reviews that DI
recipients were withholding information from SSA regarding WC payments.

In 1983, GAO issued a report that indicated, for one-third of the cases tested, disabled
persons receiving WC were not notifying SSA about these benefits.5 In these cases,
there was no information in the SSA case file to indicate that these persons were or
were likely to be entitled to WC benefits. For the other two-thirds, SSA failed to follow
up on WC information documented in the case file. For a long-term solution, GAO
recommended that SSA explore ways of using computer technology to obtain timely
notice of WC awards. GAO also recommended that SSA do a better job of case file
development and review to identify offset cases.

HHS/OIG issued a 1991 report6 documenting overpayments totaling $35 million from
1986 through 1988 because SSA beneficiary records had no WC payment indicators.
HHS/OIG also projected an annual overpayment of $11.7 million that would reach
$117.8 million by 1995 due to unreported WC payments to beneficiaries. HHS/OIG
recommended SSA reemphasize the importance of properly coding its payment
systems to reflect actual or potential WC payments. HHS/OIG also recommended SSA
expedite negotiations and consider expansion of information-exchange agreements with
several States to help identify the unreported WC. In its response, SSA maintained that
further study was needed to determine whether a legislative proposal requiring States to
provide SSA with WC payment information was necessary before the agreements could
be negotiated.

In 1996, GAO issued a report7 discussing possible administrative and program savings
if SSA would directly access State data. Although the report was directed at savings in
the Supplemental Security Income program, GAO found almost 90 percent of
overpayments occurred when beneficiaries did not report State-administered benefits,
including WC, to SSA.




5
 Better Case File Monitoring of the Workers’Compensation Offset Provision by Social Security
Administration Could Save Millions (GAO/HRD-83-90), September 30, 1983.
6
    Unreported Worker’s Compensation Payments (OEI-06-89-00900), November 1991.
7
 Supplemental Security Income: Administrative and Program Savings Possible by Directly Accessing
State Data (GAO/HEHS-96-163), August 24, 1996.



                                                  3

SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed laws and regulations concerning the offset of
DI benefits with WC payments and related SSA policies and procedures in POMS. We
also discussed the WC offset process with SSA Headquarters, regional, and field office
(FO) personnel to obtain an understanding of how WC payments affect DI benefits, and
we observed SSA personnel processing WC offset at FOs and the Office of Central
Operations. We also reviewed prior audits to identify previously reported conditions
relating to beneficiaries failing to report State WC benefit information.

To test whether DI beneficiaries were voluntarily reporting WC benefits, we used an
SSA data extract from the Master Beneficiary Record (MBR) identifying all beneficiary
records with an offset indicator8 for State WC. We limited our review to those cases
involving the offset of State-managed WC benefits. We did not review other public
disability benefits requiring offset under section 224 of the Act including both State and
Federal public disability benefits or any combination of State-managed WC benefits and
public disability benefits. The SSA extract contained 183,881 cases with a State WC
offset action occurring during the period January 1993 through June 1996.

We used the MBR extract to select a simple random sample of 100 cases. This was the
same sample of 100 cases we used to evaluate DI payment accuracy in Effects of State
Awarded Workers’Compensation Payments on Social Security Benefits,
A-04-96-61013, September 30, 1998.

During our analysis of DI payment accuracy, we found instances where beneficiaries
failed to report changes in their WC status or benefits resulting in DI payment errors.
However, to more closely examine this issue, we decided to perform additional audit
work and separately report on the overall effects of beneficiaries failing to voluntarily
provide WC information. While we sampled 100 cases, we subsequently limited our
review to 50 cases because of the number of instances identified where changes in WC
were not reported. We concluded that the level of noncompliance identified in the
50 cases was sufficient to demonstrate that an adverse condition existed.

To meet our objective, we made inquiries to identify any WC activity subsequent to the
initial verification process. Finally, we queried data in the MBR, the Supplemental
Security Income Record, the Payment History Update System, and the Processing
Case Action and Control System to identify SSA’s latest actions on the 50 cases and
the most current WC status of each beneficiary. We compared SSA’s information
against that obtained to identify cases of nonreporting. The results of that analysis are
presented in this report with case overpayments and underpayments computed from the
effective date of the unreported WC action through June 30, 1998.

To test the nonreporting of State WC data to SSA, we contacted the eight States in the
Southeastern Region to explore the possibility of extracting data directly from each

8
    We selected those cases with an Offset Code for WC and an Offset Type identified as State WC.


                                                    4

State’s WC master file for comparison with SSA records. Six of the States could not
readily provide WC data because: State law prohibited the release of WC data; formal
agreements would be required; or the data captured were not computerized or, if
computerized, were incomplete. Only the Commonwealth of Kentucky and the State of
Tennessee could readily accommodate our request for WC benefit and payment data.
They provided us data from their WC master file for those records having an “onset
disability date”occurring from July 1, 1995, through June 30, 1996.

We performed our audit field work from August 1998 through April 1999. Our audit
included an evaluation of existing controls, policies, and procedures specifically related
to the reporting of WC by beneficiaries. However, we did not determine the reliability of
the SSA systems or internal controls of those systems related to the MBR extract and
the November 1996 extract of disability cases used in this review. Neither did we audit
the systems or related internal controls over the Kentucky and Tennessee WC master
files.

The findings in our report include any control weaknesses identified during the audit and
our recommendations to correct the deficiencies, where appropriate. We performed site
visits at Atlanta and Tucker, Georgia; Baltimore, Maryland; and Birmingham, Alabama.
We conducted this audit in accordance with generally accepted government auditing
standards.




                                            5

                    R E S U L T S O F R E V I E W


Social Security DI beneficiaries did not report changes in WC status and benefits. This
resulted in inaccurate DI benefits payments estimated at $325.8 million. Historically,
SSA’s policy has been to rely totally on beneficiaries to report a WC relationship and,
once the application process is complete, to report subsequent WC changes. Because
SSA did not proactively seek to identify unreported WC, we estimate that 57,003 cases
of our population of 183,881 cases received incorrect DI benefits due to unreported
changes in WC status and benefits. The inaccurate payments were computed from the
effective date of the unreported WC action through June 30, 1998.

In a separate analysis, using WC information provided by the Commonwealth of
Kentucky and the State of Tennessee, we identified six Social Security DI beneficiaries
who were not listed in SSA records as WC recipients. As a result, for these six cases,
SSA improperly paid $29,797 in excess DI benefits.

WC ELIGIBILITY AND BENEFIT CHANGES

Our review of 50 WC offset cases disclosed that 31 beneficiaries did not report
significant changes in WC benefits resulting in overpayments of $116,600 and
underpayments of $60,554.9 Projected to our population of 183,881 WC offset cases,
we estimate that the trust fund lost $214.4 million in potential savings, and beneficiaries
were deprived of $111.4 million in benefits for a total DI payment error of $325.8 million.
The net effect of these errors on the Social Security trust fund would be excess outlays
of $103 million.

We limited our actual review to 50 cases because of the number of instances we
identified (62 percent of the cases) where changes in WC were not reported. The
overall results of our case review showed

• 31 cases where WC changes went unreported;
• 15 cases where beneficiaries voluntarily reported WC changes; and
•	 four cases where we could not determine whether the beneficiary voluntarily
   reported or SSA identified the WC change.




9
  Seventeen of these cases were previously discussed in Effects of State Awarded Workers’
Compensation Payments on Social Security Benefits (A-04-96-61013), September 30, 1998 as having
payment errors. The total overpayment and underpayment amounts previously reported on the 17 cases
totaled $98,953 and $37,266, respectively.


                                                6

With 31 of 50 beneficiaries not reporting changes, the evidence was sufficient to
demonstrate that an adverse condition existed and to show that SSA’s policy of relying
totally on beneficiaries to voluntarily report changes in WC benefits was ineffective.

While we limited our review to 50 cases, when we project to the entire population of WC
offset cases, our projections are based on the total sample of 100 cases. Using this
approach, we elected to accept the remaining 50 cases in our sample, which were not
reviewed, as correct. If we reviewed all 100 cases, our reported estimates could
reasonably be expected to increase. Therefore, we consider the projected dollar errors
and the dollar error rate presented in this report to be conservative (see Appendices A,
B, and C).

WC Changes Can Affect DI Benefits

WC changes affecting DI payment status often occur after the beneficiary first applies
for disability benefits. It can take several months or even years between the time the
beneficiary initially applies for DI benefits and when the WC change occurs. Therefore,
over the extended period, DI overpayments and underpayments can become significant
because the beneficiary failed to report changes in the periodic weekly payment rate or
the receipt of a lump sum WC benefit.

Of the 31 cases, we identified the unreported WC changes in 25 cases while SSA
identified WC changes in 6 cases. In all 31 cases, the beneficiaries did not inform SSA
of the WC change as agreed in the DI application. As a result, SSA made incorrect
monthly WC payments in 23 cases. The DI underpayments ranged from $606 to
$15,649 in 9 cases, while overpayments ranged from $89 to $36,014 in 14 cases. In
the remaining eight cases, the WC change did not affect monthly benefits because of
high average current earnings10 or there was some other offsetting procedural or
calculation error which negated the impact of the unreported WC action.

                                                       Sample                  Projected
                                                     Dollar Error             Dollar Error

            Overpayments: 14 cases                   $116,599.85             $214,404,970

            Underpayments: 9 cases                   $ 60,553.60             $111,346,565

            Total Error           23 cases           $177,153.45             $325,751,535




10
   Under POMS, both the provisional and final DI benefits must be reduced so the combined disability
payment is no larger than 80 percent of the worker’s pre-disability earnings (average current monthly
earnings) or the total family benefits (that is, the sum of the individual’s Social Security benefits payable to
all others based upon his work record) before reduction.


                                                       7

Overall, out of the total population of 183,881 cases, we estimate that
57,003 beneficiaries did not make required WC declarations to SSA. When projected to
the total population of 183,881, the overpayments and underpayments are significant
totaling about $325.8 million.

For the 23 cases with payment errors, the causes varied. In 13 of the cases, the
beneficiary failed to report a lump sum settlement award that ranged from $1,950 to
$461,611.11 In the other 10 cases, the beneficiaries failed to report a change in the
periodic WC payment amount.

The time it took for the unreported WC action to occur also varied. For 10 of the
31 cases, the WC change occurred between the time of application and time of benefit
effectuation. In another 17 cases, the WC action took place months or years after initial
award of benefits. In one case, the unreported WC change occurred over 7 years after
the individual’s DI benefits were effectuated. In the remaining four cases, the WC
change occurred before the date of filing or in the same month as benefit effectuation.

Therefore, for the 57,003 cases in which we estimate that WC changes went unreported
by the beneficiaries, the type of change and the time such change occurred would have
no pattern. Nevertheless, any WC change can affect DI benefits, and heightened
controls are needed to detect those changes.

SSA Relied on Voluntary Reporting

SSA’s intent to have beneficiaries voluntarily report WC changes was relatively clear. In
response to the work GAO completed in 1983, SSA made changes in the application
process to clearly inform beneficiaries of their WC reporting responsibilities. Applicants
were required to declare whether or not they applied for WC and its status by making
one of the following three statements.

•	 “I have not filed nor do I intend to file for any workers’compensation, public disability
   or black lung benefits.”

•	 “I have filed or intend to file for workers’compensation, public disability, or black lung
   benefits, but I am not (currently) receiving benefits.”

•	 “I am receiving or expect to receive workers’compensation, public disability, or black
   lung benefits.”

In addition to these declarations of benefit status, the applicants were also reminded
that, if their status changes, they must report those changes to SSA.



11
   The effect of a lump sum settlement on title II benefits depends on several things, such as the amount
of the beneficiary’s average current earnings and the manner in which the settlement is structured by the
administrative law judge.


                                                    8

To underscore this requirement, SSA included the following statement in the disability
application.

       I agree to notify the Social Security Administration if: I apply for or receive
       a decision on benefits under any workers’compensation law or plan. . . . I
       agree to report entitlement to and/or changes in the amount of workers’
       compensation or other public disability benefit. I understand that such
       benefit may affect my Social Security payments or result in an
       overpayment which I may have to pay back.

The applicant signed and was provided a copy of the completed DI application
that contained the above statement.

Through this process, SSA established beneficiary self-reporting of WC as the principal
control for initiating actions to maintain the accuracy of monthly DI payments. However,
we found that relying solely on self-reporting did little to ensure that all WC benefits
were identified to SSA. It is often not in the beneficiary’s best interest to report WC
changes, especially in those situations when changes in WC may reduce the monthly DI
benefit payment. Without an effective control to require compliance with SSA’s self-
reporting policy, there is no alternate way for SSA to detect individuals who do not
report; therefore, large numbers of WC changes will continue to go undetected.

Post-entitlement Initiatives Can Help

Processes routinely or previously used by SSA in conducting DI business could easily
determine the current status of WC benefits and payments. SSA could then initiate
appropriate and timely action to increase or decrease the DI payments before large
overpayments or underpayments occur. For example, the use of mass mailings and
minor modifications to the current continuing disability review (CDR) process could
detect unreported changes in State WC payments.

   Mass Mailings - On two separate occasions, in 1984 and 1989, SSA sent mass
mailings to DI beneficiaries coded on the MBR as receiving State WC to test the
feasibility and cost-effectiveness of an annual or periodic mailing to identify subsequent
WC activity. The results of both mailings demonstrated that SSA made substantial
errors by either overpaying or underpaying beneficiaries because of unreported State
benefits.

In November 1984, SSA reported that 72,333 questionnaires were mailed to disabled
workers listed on the MBR as receiving State WC. In April 1985, SSA followed up by
mailing 10,996 questionnaires to persons who did not respond to the initial November
request. In response to both mailings, SSA reported a 93-percent response rate.

Of the 67,330 disabled workers responding, 2,151 adjustment actions were determined
necessary (3.2 percent of the cases) because the reported WC amounts did not agree
with SSA records. The total value of errors identified was $30,954,022. The total error



                                             9

consisted of $22,437,277 in overpayments and $8,516,745 in underpayments. From
these results, SSA concluded that the 1984 study was cost-effective and that high
program savings could result by sending periodic questionnaires to DI beneficiaries.

In October 1989, SSA performed a second mass mailing of 130,000 questionnaires to
disabled workers receiving WC benefits. As in the 1984 study, SSA’s response rate
was high with 107,883 beneficiaries (83 percent) responding. SSA subsequently
determined that 3,151 of these cases (2.9 percent) required $73,122,553 in adjustments
(1,481 cases with overpayments totaling $35,958,724 and 1,670 cases with
underpayments totaling $37,163,829).

In 1984, the WC questionnaire uncovered a significant number of overpayments as well
as a smaller number of underpayments that resulted in net savings for the trust fund. In
the 1989 survey, SSA identified more underpayments than overpayments. SSA
concluded that, since it corrected the majority of title II disability records with the
1984 mailing, the claimants who were previously overpaid must have started reporting
their WC increases. SSA believed that the fewer number of overpayments in 1989 were
the result of increased reporting. SSA further noted that from the standpoint of saving
Federal dollars, the 1989 mailer had a net loss.

It should be noted that in both the 1984 and 1989 studies, SSA made corrections only in
those instances where beneficiaries voluntarily reported a change on the questionnaire.
There was no other proactive SSA effort to identify unreported WC benefits by obtaining
information directly from State WC agencies or the insurance carriers. Also, the
1989 questionnaire informed the beneficiaries that “You do not have to give us this
information. However, if we do not have correct information, we might pay you benefits
to which you are not entitled, and you may have to pay this money back.”

The lower level of overpayment errors identified in 1989 could be the result of
beneficiaries electing not to report WC to prevent reduction in benefits rather than good
reporting, as suggested by SSA. The number of unreported WC actions found in our
sample appears to support this reasoning. Nevertheless, from both mailings, SSA
recognized a benefit to the public by uncovering inaccurate payments.

Both studies successfully identified and corrected MBR errors totaling more than
$104 million ($58 million in overpayments and $46 million in underpayments). Each of
these studies showed that the value of the DI payment errors resulting from unreported
State WC was substantial. They also produced a significant improvement in payment
accuracy by identifying those instances of unreported WC and by correcting those
payment errors regardless of whether they were overpayments or underpayments.
Based on our review, we propose that additional mailings are warranted and, if coupled
with a periodic analysis of State WC records, would help eliminate most inaccurate DI
payments resulting because beneficiaries are failing to report post-application WC
changes.




                                           10

   Continuing Disability Reviews - The CDR process can also be used to identify
post-application changes in WC. After the initial DI payments begin, SSA establishes a
timetable for conducting CDRs. SSA is required by law to conduct CDRs to determine
whether a beneficiary has medically improved to the extent the person is no longer
considered disabled and eligible for DI benefits. The type of CDR performed will vary
depending on the extent of the disability. For example, the most seriously disabled may
only receive a periodic mailer while others may be subjected to a full CDR.

For a full CDR, SSA follows an eight-step process. Most of the eight-step process is
devoted to re-establishing the medical aspects of the beneficiary’s case. However, in
the first step, FO staff contact the beneficiary to obtain information on any changes
since the original DI application or the most recent CDR. The FO gathers information
as to whether the disabling condition continues to interfere with the person’s ability to
work, or if medical decisions have been made that permit the individual to return to
work. At the same time, FO staff could establish the beneficiary’s current WC status
and request the required WC documentation without much added effort. Likewise, the
information requested by mail on the Disability Update Report (SSA-455-OCR-SM)
could be expanded to include a question on WC changes. If WC is identified, the
beneficiary could then be asked to provide verification. If WC documentation cannot be
provided by the beneficiary, SSA could contact the appropriate State WC agency or
insurance carrier for independent verification.

Although beneficiaries sign a statement when applying for disability benefits agreeing to
report any WC changes, as demonstrated in this report, they do not always comply.
When beneficiaries fail to comply, DI benefits are not paid accurately. Overpaying
beneficiaries and then aggressively seeking repayment or underpaying and later
catching up with retro-payments may rectify payment inaccuracies, but the process falls
short of the Agency’s goal of making accurate payments and providing world-class
service. Consequently, we believe SSA needs to be more proactive in identifying WC
using available mechanisms like those discussed above.

WC BENEFITS IN KENTUCKY AND TENNESSEE

From a comparison of 6,217 Kentucky and Tennessee WC records to SSA records, we
matched 159 cases. From these cases, we identified six cases, four in Kentucky and
two in Tennessee, where DI beneficiaries were receiving other public compensation, but
their DI benefits were not reduced. In five of the six cases, the applicants did actually
report that they had filed or intended to file for WC benefits. However, SSA did not code
these as WC cases in the MBR. Without that coding, WC was not considered when
calculating the DI benefit. In the sixth case, the beneficiary stated in the application:
“I have not filed nor do I intend to file for any workers’compensation, public disability, or
black lung benefits.” However, this beneficiary later applied for, and collected State WC
without reporting the change to SSA. As a result, in these six cases, DI benefits were
not properly offset and $29,797 in overpayments occurred.




                                             11

We compared the 6,217 Kentucky and Tennessee records to an MBR extract of
183,881 active offset cases (312,619 total records) and a separate November 1996
extract of active disability cases (8.2 million records). There were 159 Kentucky and
Tennessee cases that matched either the MBR extract or the disability case records.
We then queried SSA systems to determine whether these individuals were receiving DI
benefits and whether the MBR indicated whether WC had been reported to SSA. There
were 33 cases, which indicated SSA had no knowledge of the WC benefits.

To determine whether the beneficiary was receiving State WC while in DI payment
status, we requested Kentucky and Tennessee to provide us documentation for past
and current WC actions. From that documentation, we established the extent, amount,
and timing of any periodic WC payments or lump sum settlements. We also requested
SSA FO staffs in Frankfort, Kentucky, and Nashville, Tennessee, to query their systems
resources and identify any WC changes appearing since the date of application. We
analyzed the FO information and determined that, in 6 of the 33 cases, WC was not
properly offset resulting in total DI overpayments of $29,797.

According to policy, if SSA has any indication that a worker will receive or is receiving a
WC payment, or an increase in WC payments, SSA should follow up and impose the
appropriate offset. In all six cases, there was enough evidence in the file to indicate that
SSA should have recognized the potential for WC and coded systems for appropriate
follow-up. To illustrate this point, the following examples are provided.

Example 1

A claimant filed for DI benefits in April 1996 and stated on the application that she had
not filed and did not intend to file for any WC, public disability, or black lung benefits.
However, evidence in the case file identified this disability as work-related. Based on
this information, SSA should have coded this case as a pending WC offset case and
continued its development to resolve the claimant’s discrepant answer. By not
appropriately coding this case, no follow-up occurred. In June 1996, the claimant filed
for WC benefits with the Commonwealth of Kentucky. In March 1997, the
Commonwealth awarded the claimant a lump sum settlement of $21,979.38. The
claimant was initially entitled to DI benefits in July 1996. Through June 1998, the
claimant had received DI benefits totaling $16,913 that were not offset. However, if
SSA would have identified the lump sum settlement and applied the applicable WC
offset, our calculations show that the resulting DI payments would have been offset by
$5,759.




                                             12

Example 2

A claimant filed for DI benefits in January 1996 and stated on the application that he
intended to file or had filed for WC or public disability benefits. However, SSA did not
code this case as a pending WC offset case. Subsequently, in April 1996, the State of
Tennessee awarded the claimant a lump sum settlement of $12,644.36. The claimant
was entitled to DI benefits beginning June 1996, and he and his auxiliaries were paid DI
benefits through June 1998 totaling $30,146. If SSA had properly coded WC in the
MBR, it could have taken appropriate follow-up action to identify the lump sum
settlement and apply the WC offset for savings of $3,240.

In 1983, GAO had similar findings regarding SSA following up on WC leads and
recognized that computer matching might be the long-term solution. SSA has authority,
under the Act12 to enter into agreements with States to obtain WC data to make timely
determinations for WC offset. However, SSA has made little progress in acquiring the
State WC data needed for computer matching.

STATE MATCHING TO IDENTIFY AND VERIFY WC ACTIVITY

Matching SSA data with State WC records would be the most expedient method for
identifying unreported WC benefits. However, over 15 years have passed since GAO
first reported the issue of beneficiaries failing to report WC benefits and discussed the
potential benefits of obtaining WC data directly from the States. Over the years, SSA
has initiated actions to obtain WC information through direct on-line access, but
progress has been slow.

In October 1998, SSA reported on its efforts to obtain direct access to State data.13
Through negotiated agreements, SSA has had some success in acquiring on-line
access to vital statistics, welfare, medical, and food stamp data. Currently, SSA has
on-line access with agencies in 22 States with plans to increase on-line access to
45 States by Fiscal Year 2002. However, for WC data, SSA has on-line access in only
5 of the 22 States— Tennessee, Maryland, West Virginia, North Dakota, and
South Dakota. Collectively, these 5 States accounted for less than 6 percent of the
183,881 WC cases.

From our MBR extract of 183,881 WC records, we identified the top 10 WC States that
represent over half of the Nation’s WC cases. At the time or our review, none of these
States had matching agreements.




12
     Section 224(h)(2).
13
     Management of the Supplemental Security Income Program: Today and in the Future, October 8, 1998.


                                                   13

           Rank                   State                            Percentage
            1                  New York                                9.4
            2                  California                              8.9
            3                  Texas                                   7.7
            4                  Pennsylvania                            6.5
            5                  Ohio                                    5.7
            6                  Puerto Rico                             5.6
            7                  Michigan                                4.4
            8                  Kentucky                                3.6
            9                  Massachusetts                           3.5
           10                  Georgia                                 3.3
           Total                                                      58.6

Based on conclusions drawn from the 1984 mailing of questionnaires to DI
beneficiaries, SSA recognized the value of concentrating efforts in the States with the
largest WC activity. SSA noted that the States in which SSA identified the most savings
were the large, highly industrialized States of Michigan and Ohio and the two highly
populated States of California and New York. Of the $30.9 million in savings SSA
identified in the 1984 study, more than $14.4 million was related to California,
New York, Michigan, and Ohio. These four States, as shown above, continue to have
significant WC activity over 15 years after the initial study.

While the 10 States listed accounted for 58.6 percent of the total WC cases, SSA has
not been able to acquire direct access to their WC data. In a 1983 GAO report, SSA
explained the difficulties in obtaining State WC data and performing computer matches.
SSA reported the following.

•	 A majority of States did not have automated centralized WC records that would
   facilitate a large-scale, routine matching activity.

•	 Even for the States with computerized files, the information did not meet the needs
   of an SSA matching operation. At best, SSA could only perform a matching
   operation that would produce leads that would necessitate asking SSA FOs to
   review and resolve each match.

• Some States had limitations regarding the release of information to SSA.

In 1999, SSA is still reporting problems with privacy restrictions that interfere with the
matching of data14 and incomplete State data, which inhibit matching (for example, no
payment data, Social Security numbers, etc). As a result, not much has been
accomplished in matching SSA records with State WC records since first proposed by

14
    In May 1997, the Office of the Counsel to the Inspector General (OCIG) issued an opinion addressing
the legal barriers involved in obtaining WC data from individual States. The opinion advanced several
potential arguments that may be raised in support of the sharing of this information. We propose that
SSA’s Office of General Counsel and the OCIG work together to refine these arguments in anticipation of
likely opposition by the States with regard to the release of this information.


                                                  14

GAO in 1983. At that time, GAO recognized that the widespread use of computer
matching was years away; however, based on our conversations with those involved in
1998, obtaining more on-line access to usable State WC data is still a long way off.
Until on-line data are available at the State level, SSA could use extracted WC data as
a means to identify unreported WC. As was done in Kentucky and Tennessee, SSA
could use extracted WC data to screen for DI beneficiaries who are not reporting major
WC changes to SSA. Then, SSA could request States to provide documents showing
the WC changes. Using these documents, SSA could adjust the MBR and pay
beneficiaries the correct DI amount.




                                          15

 CONCLUSIONS AND RECOMMENDATIONS


SSA continues to experience difficulty in getting beneficiaries to provide WC data critical
for making accurate DI computations. When SSA is unable to acquire these data, DI
benefits may be incorrectly paid resulting in both overpayments and underpayments.
Although beneficiaries sign a statement when applying for disability benefits agreeing to
report any WC changes, as demonstrated in this report, they do not always comply.
When beneficiaries fail to comply, DI benefits are not paid accurately. As expressed by
SSA in the 1997-2002 Social Security Strategic Plan, the public deserves the highest
level of performance. Placing the burden of reporting subsequent changes in WC
status and benefits solely on the shoulders of disabled beneficiaries may not be in the
best interest of the beneficiary or the DI program. Overpaying beneficiaries and then
aggressively seeking repayment or underpaying and later catching up with retro­
payments may rectify payment inaccuracies but falls short of the Agency’s goal of
making accurate payments and providing world-class service.

SSA has other alternatives to acquire WC information and acquire it timely to ensure
accurate DI benefit payments. Therefore, given the high rate of noncompliance, SSA’s
best approach would be to periodically request WC verification from State agencies to
identify unreported WC. Relying on beneficiaries to voluntarily report subsequent WC
changes is not a viable control.

Therefore, we recommend that SSA:

1.	 In those States where SSA has on-line access to WC data, perform a periodic match
    of DI beneficiary WC benefit rates used for offset against the WC rates paid and
    adjust for any discrepancies.

2.	 For those States where on-line matching of WC data is not a current option,
    negotiate agreements with State officials to periodically obtain computer extracts of
    State WC information and benefit payments. Match the State WC rates against the
    rates used for offset, as recorded on the MBR, to identify potential nonreporters and
    cases not properly offset. Emphasis should be initially placed on those States with
    the highest WC activity.

3.	 In those States where WC data cannot be obtained for computer matching, institute
    alternative measures to proactively identify WC benefits and benefit changes that
    are unreported by DI recipients. For example,

       -   Through a mass mailing, reaffirm with DI beneficiaries their WC reporting
           responsibilities and request current information on past WC lump sum benefit
           payments and/or changes in periodic payments, or


                                            16

       -   During CDRs, inquire about post-application WC changes that could require
           the offset of DI benefits. If WC changes are indicated or discrepant answers
           are provided, diary for follow up and resolution.

4.	 Take the required action in the cases sampled to resolve the $116,600 in
    overpayments and $60,554 in underpayments that result when beneficiaries failed to
    report subsequent changes in State WC benefits. Also, collect the overpayments of
    $29,797 that resulted from the Kentucky and Tennessee cases because SSA either
    did not adjust for the WC benefits reported, or the beneficiary failed to report State
    WC benefits.

AGENCY COMMENTS

SSA believes the report findings have merit and agreed with the recommendations.
SSA is pursuing matching agreements in 10 States and is negotiating with other States.
While taking corrective action, SSA expressed some concerns over its ability to
negotiate matching agreements for every State and the potential cost associated with
implementing other supplemental controls.

Because of the problems with the WC workload, SSA has established a WC work group
to improve the accuracy of WC payments. The work group will be pursuing a number of
efforts, including:

• reviewing over 61,000 WC cases to ensure the payment is correct,

• issuing policy and procedure reminder items to program service center staff,

• testing a mailer to beneficiaries to update WC information, and

• developing recommendations for improving WC systems and controls.

The full text of SSA’s comments is in Appendix D.

OIG RESPONSE

We are pleased that SSA has taken steps and agreed to take additional steps to identify
unreported WC and improve the accuracy of affected DI payments. We are also
pleased that SSA invited us to participate in the WC work group charged with improving
payment accuracy in the DI workload involving WC.

Overall, we believe the cleanup and prevention efforts SSA has taken and proposed
should go far in helping to correct the WC offset deficiencies identified in this and earlier
OIG audit reports. We also understand the apprehension expressed by SSA
concerning the difficulty in negotiating some matching agreements and the cost
associated with performing matches and implementing the supplemental controls
needed to ensure payment accuracy in States where matching is not an option. SSA’s


                                             17

commitment to data exchanges under State matching agreements and performing
periodic mass mailings to update beneficiary WC information will be major steps toward
identifying and eliminating unreported WC as a major cause of DI overpayments and
underpayments.




                                          18

APPENDICES

                                                                                     APPENDIX A


                A T T R I B U T E S A P P R A I S A L


                       UNREPORTED WORKERS’COMPENSATION

                                           A-04-98-64002

             Total Cases of Changes in Workers’Compensation Benefits
                         Unreported by Title II Beneficiaries


    Total Population                                                           183,881

    Total Sample Size                                                               1001

    Number of Cases with the Social Security
     Administration (SSA) Benefit Computation Errors                                 312

    Projection of Cases in Total Population
     with SSA Benefit Computation Error                                        57,003


    CONFIDENCE LEVEL	               We are 90-percent confident that the actual number of
                                    cases in the total population where beneficiaries did not
                                    report workers’compensation changes is between
                                    43,033 and 72,569..




1
  We selected a simple random sample of 100 cases. We have based our projections on the errors

identified from our review of 50 cases. When we project the results, we are using the entire sample of

100 cases. This assumes that the remaining cases, which we did not review, contain no errors.

However, if we reviewed the remaining 50 cases, we would expect the errors and the projections of those

errors to increase proportionately.

2
  The nonreporting of workers’compensation had an effect on payments in 23 of the 31 cases. See

Appendix B for the total amount of payment error for the 23 cases.

                                                                           APPENDIX B


            V A R I A B L E S A P P R A I S A L


                   UNREPORTED WORKERS’COMPENSATION


                                  A-04-98-64002


             Total Dollar Error in the Master Beneficiary Records



Total Dollar Error in Sample of 100 Cases                 $    177,153.45

Total Sample Size                                                       100

Average Total Dollar in Error                             $    1,771.5345

Total Population                                                   183,881

Value of Projected Computation Errors to
 the Total Population of Title II Benefits Paid           $ 325,751,535


CONFIDENCE LEVEL	                  We are 90-percent confident that the actual value
                                   of all dollars in error in the total population of title II
                                   benefits paid is between $163,190,256 and
                                   $488,312,814.
                                                                                             APPENDIX C


         N O N S T A T I S T I C A L A P P R A I S A L


                         UNREPORTED WORKERS’COMPENSATION


                                              A-04-98-64002


                          Nonstatistical Estimate of Dollars Overpaid



    Total Dollars Overpaid in the Sample                                     $       116,599.85

    Number of Cases in Sample                                                                100

    Average Dollars Overpaid for Each Case in Sample                         $       1,165.9985

    Number of Cases in Total Population                                                 183,881

    Total Dollars Overpaid
          ($1,165.9985 x 183,881)                                           $       214,404,9701

          ----------------------------------------------------------------------------------------------

                         Nonstatistical Estimate of Dollars Underpaid

    Total Dollars Underpaid in the Sample                                       $      60,553.60

    Number of Cases in Sample                                                                 100

    Average Dollars Underpaid for Each Case in Sample                        $         605.5360

    Number of Cases in Total Population                                                 183,881

    Total Dollars Underpaid
     ($605.536 x 183,881)                                                        $ 111,346,565




1
  The net effect of the overpaid and underpaid Disability Insurance benefits on the Social Security trust
fund would be an estimated loss of $103 million.


                                                      C-1

                        UNREPORTED WORKERS’COMPENSATION

                                            A-04-98-64002

                         Nonstatistical Estimate of Title II Benefits Paid


    Total Benefits Paid to Primary Number Holder and
     Auxiliaries in 50 Sample Cases                                      $         2,064,387

    Number of Cases in Sample                                                               50

    Average Benefits Paid Per Sample Item                               $         41,287.74

    Number of Cases in Total Population                                              183,881

    Total Title II Benefits for Total Population
     ($40,778.006 x 183,881)                                             $   7,592,030,9192




________________________

2
  This is a nonstatistical estimate. Due to time considerations, we did not determine the benefits paid on

the 50 sample cases not reviewed.





                                                   C-2

                APPENDIX D


SSA COMMENTS

COMMENTS ON OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“WORKERS’ COMPENSATION UNREPORTED BY SOCIAL SECURITY
BENEFICIARIES” (A-04-98-64002)


We appreciate OIG’s efforts to review whether Social Security
Disability Insurance (DI) beneficiaries are reporting the
receipt of State workers’ compensation (WC) benefits or changes
in those benefits to the Social Security Administration (SSA).
We believe that the report findings have merit and generally
agree with the recommendations.

SSA acknowledges that there are problems with the WC workload and
is working to make improvements. We recently established a WC work
group with the goal of significantly improving the accuracy of WC
payments. We are pleased that OIG is collaborating with SSA in
this effort and we expect to develop an action plan for significant
improvement. The work group is currently pursuing a number of
cleanup and prevention efforts as follows:

o	   reviewing more than 61,000 WC cases to ensure the payment
     is correct;

o	   issuing reminder items to program service center staff
     regarding policy and procedures related to WC actions;

o	   testing a mailer to beneficiaries that would be sent
     annually to update WC information;

o	   developing recommendations for improving WC systems and
     controls.

We believe that these activities will help to correct the WC
offset deficiencies identified in this and earlier OIG reports.

Recommendation

In those States where SSA has on-line access to WC data, perform
a periodic match of disability insurance (DI) beneficiary WC
benefit rates used for offset against the WC rates paid and
adjust for any discrepancies.

Comment

We agree. We plan to pursue periodic matches in States where we
have on-line access. On an ongoing basis, we have



                               D2

periodic WC matches with Federal agencies and we are pursuing
matches with the larger insurance companies to see if the
available information would help SSA to more accurately process
WC cases.

It is important to note, however, that establishing State
matches can be time-consuming with extensive negotiation and
systems compatibility development needed. Return on investment
also needs to be addressed. As noted in the report, these types
of matches would have to be done on a state-by-state basis,
which adds to the cost and complexity of the match while
limiting its benefits. The report contains no data indicating
either costs or savings on a state-by-state basis, nor is there
any data on the administrative cost of implementing the
recommendation. Given the difficulties involved, we are unable
to predict how successful or timely our efforts will be in
obtaining WC data from the States via matches. Moreover,
matches will not provide all of the needed data since in most
States all WC injuries and payments are not required to be
reported; e.g., self-insurers.

Recommendation

For those States where on-line matching of WC data is not a
current option, negotiate agreements with State officials to
periodically obtain computer extracts of State WC information
and benefit payments. Match the State WC rates against the
rates used for offset, as recorded on the Master Beneficiary
Record (MBR), to identify potential nonreporters and cases not
properly offset. Emphasis should be initially placed on those
States with the highest WC activity.

Comment

We agree. SSA is pursuing matching agreements in the ten
largest WC States. We are also negotiating with the other
States to obtain State WC data. However, negotiating agreements
with States to obtain computer extracts of WC data involves the
same kind of difficulties described above. Consequently, we are
unable to determine how successful these efforts will be.




                               D3

Recommendation

In those States where WC data cannot be obtained for computer
matching, institute alternative measures to proactively identify
WC benefits and benefit changes that are unreported by DI
recipients:

A.	   Through a mass mailing, reaffirm with DI beneficiaries
      their WC reporting responsibilities and request current
      information on past WC lump sum benefit payments and/or
      changes in periodic payments; and

B.	   during continuing disability reviews (CDR), inquire about
      post-application WC changes that could require the offset
      of DI benefits. If WC changes are indicated or discrepant
      answers are provided, diary for follow up and resolution.

Comment

While we believe the best approach to obtaining WC data is
through State matching (despite the difficulties involved), we
believe that other methods such as a mass mailing could be
helpful in the interim. As stated above, SSA’s WC work group is
currently exploring this option. It should be noted, however,
that costs associated with a WC mailer could be substantial,
both from a startup and maintenance perspective. Moreover,
inaccurate information received on the mailer could trigger
inappropriate overpayments and underpayments. The Agency will
need to consider all of these issues as we proceed.

With respect to inquiring about WC during CDRs, we believe this
would be an unproductive approach since the number of
beneficiaries receiving WC is relatively small and, if we
proceed with the mass mailer, we would be capturing the
information that way.

Recommendation

Take the required action in the cases sampled to resolve the
$116,600 in overpayments and $60,554 in underpayments that
resulted when beneficiaries failed to report subsequent changes in
State WC benefits. Also, collect the overpayments of $29,797 that
resulted from the Tennessee and Kentucky cases because SSA either
did not adjust for the WC benefits reported, or the beneficiary
failed to report State WC benefits.



                                D4

Comment

We agree. We are currently taking action to resolve the
overpayments and underpayments identified during the review.

With respect to incorrect payments, we note that the report
concludes that the failure of beneficiaries to voluntarily
report changes in WC status and benefits and SSA’s inability to
independently identify those changes are major causes of
inaccurate DI payments. Although beneficiaries’ failure to
report may be a cause of inaccurate payments, because of the
complexity involved, WC cases are error prone. Consequently,
some payment errors may be a result of SSA's handling rather
than beneficiary reporting. As described above, SSA has
established a WC work group that is reviewing prior WC cases and
developing recommendations for improving WC systems and
controls.




                               D5

                                                                    APPENDIX E


 MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General

Gary A. Kramer, Director, Program Audits (Eastern Division)

James D. O’Hara, Deputy Director

Richard C. Edris, Senior Auditor

Douglas L. Boyer, Auditor

Michele J. Roshetko, Senior Auditor

For additional copies of this report, please contact the Office of the Inspector
General’s Public Affairs Specialist at (410) 966-5998. Refer to Common
Identification Number A-04-98-64002.
                        APPENDIX F


SSA ORGANIZATIONAL CHART

